HHS/OIG-Audit--"Review of the Indian Health Service's Contract Health Services Program, (A-15-97-50001)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Indian Health Service's Contract Health Services Program,"
(A-15-97-50001)
January 21, 1999
Complete Text of Report is available in PDF format
(1.5 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
As a Federal purchaser of inpatient health care from the private sector, the
Indian Health Service (IHS) should be receiving rates commensurate with other
Federal agencies who engage in similar purchases. However, IHS paid an aggregate
$4.8 million more than Medicare rates for services provided in Fiscal Year 1995--an
amount that included $8.2 million paid to hospitals over Medicare rates, reduced
by $3.4 million for certain instances where IHS actually paid hospitals less
than Medicare rates. The IHS is paying too much because there is no law requiring
providers to offer Medicare or lower rates, and IHS has not been fully successful
in its efforts to obtain favorable rates through contracts and other procurement
mechanisms. The IHS concurred with our recommendation to pursue legislative
action requiring favorable Medicare or lower rates for payment of IHS health
services.